Executive Summary
Table of Contents




                    Government
                    as a Postal
                    Customer
                    and Partner:
                    International
                    Round Table
Observations




                    Recap
                    RARC Report
                    Report Number
                    RARC-IB-14-003-DR

                    August 11, 2014
Appendix




                                        Print
Executive Summary
Table of Contents




                    Executive                                      Digital technologies, dwindling government budgets, shrinking field
                                                                   structures, and citizens’ growing demand for more modern and
                                                                                                                                                                 Second, as enabling platforms and highly trusted intermediaries with
                                                                                                                                                                 a position of legal standing for communications and transactions,
                    Summary                                        efficient services are transforming the way governments operate and
                                                                   deliver services, as well as what they need from their partners
                                                                                                                                                                 posts can facilitate the online and offline provision of services that
                                                                                                                                                                 require high standards of privacy, confidentiality, and security such
                                                                   and suppliers.                                                                                as identification services, payments, document certification and
                                                                                                                                                                 notarization, management of electronic health records, voting by
                                                                   On April 9, 2014, the U.S. Postal Service Office of Inspector General                         mail, and e-voting.
                                                                   and the Postal Innovation Platform co-organized an international
                                                                   round table hosted by IBM in Washington, D.C.1 The objective was to
                                                                                                                                                                    Highlights
                       “...the government services                 discuss with experts, government representatives, academics, and
                                                                   private sector organizations how postal operators could leverage their                             The government services market presents tremendous
Observations




                       market presents significant                 assets and capabilities to successfully meet the changing needs of
                                                                                                                                                                      opportunities for posts to diversify business while
                                                                                                                                                                      continuing to fulfill their public service mission.
                                                                   government. This Issue Brief recaps the discussion.
                        business opportunities for
                                                                                                                                                                      Competitive advantages, such as an unrivalled physical
                               postal operators.”                  The main point that emerged was that the government services                                       network, trusted intermediary role, cultural affinity, and
                                                                   market presents significant business opportunities for postal                                      similar working models could help position posts as
                                                                   operators. Posts almost everywhere have features and resources                                     preferred government services providers.
                                                                   that provide them with competitive advantages over others in the
                                                                                                                                                                      Many posts have successfully leveraged these
                                                                   e-government space.                                                                                advantages to develop a broad portfolio of physical
                                                                                                                                                                      and digital government solutions to assist agencies in
                                                                   First, postal operators offer unrivalled post office and delivery                                  reducing costs, streamlining processes, and improving
                                                                   networks that could help government expand access to public                                        inter-agency coordination and customer service.
                                                                   services in rural and remote areas where “digital refugees,” people
                                                                                                                                                                      Effectively doing business with government requires
                                                                   without broadband access or limited digital skillsets, are often located.                          developing appropriate skills and capabilities, defining
Appendix




                                                                   In addition, by acting as a shared point of service for multiple                                   clear strategic plans, and establishing rigorous
                                                                   agencies, posts could help government reduce duplicative costs. They                               evaluation processes to determine return on investment
                                                                   would also benefit from sharing their overhead costs with others.                                  of new opportunities.

                                                                   1
                                                                       	 The Postal Innovation Platform operates under the umbrella of the École Polytechnique
                                                                         Fédérale de Lausanne, Switzerland, the Universal Postal Union, and Swiss Post.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                                        Print                                          1
Executive Summary                                                  Finally, governments and posts — most of which are still                 The postal operators that have been the most effective in doing
                                                                   government-owned — share similar work cultures and models and            business with government seem to share some common factors.
                                                                   have pre-existing business and personal connections. These factors       They have invested in developing the appropriate set of skills
                                                                   contribute to lowering the so-called “hidden transaction cost” — the     and capabilities required to deal with a complex customer like the
                                                                   risk and time involved in creating and nurturing a partnership — often   government. Designated business teams are dedicated to engaging
                                                                   making it easier for the government to do business with the postal       with government, understanding its needs, identifying and assessing
                                                                   operator rather than private sector providers. For postal operators,     possible opportunities, and defining clear implementation plans.
                                                                   government services are an opportunity to diversify their business       Finally, they have put in place efficient evaluation processes to
                                                                   while continuing to fulfill their public service mission.                determine the viability, cost-efficiency, and return on investment of
                                                                                                                                            new opportunities with government.
                                                                   Many posts have successfully leveraged these competitive
                                                                   advantages to create a broad portfolio of physical and digital           During the half-day discussion, participants were only able to touch
Table of Contents




                                                                   government solutions to assist agencies in reducing costs,               upon the different aspects of postal government strategies, leaving
                                                                   streamlining processes, and improving inter-agency coordination          room for additional future research on successful best practices.
                                                                   and customer service. Their services range from the end-to-end
                                                                   management of government processes, like issuance of residence
                                                                   permits to immigrants or processing and delivering government
                                                                   payments, to front-desk services, such as the acceptance of renewal
                                                                   requests for passports and other licenses.
Observations
Appendix




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                   Print                                         2
Executive Summary
                    Table of Contents                              Cover
                                                                   Executive Summary............................................................................................ 1
                                                                   Observations....................................................................................................... 4
                                                                     Introduction..................................................................................................... 4
                                                                     Posts and Government: A Long-Standing Relationship
                                                                      That Needs to Be Rekindled ......................................................................... 4
                                                                     Successfully Engaging with Government: Strategies and Best Practices
                                                                     from Around the World.................................................................................... 4
                                                                     The Building Blocks of an Effective Postal Government Strategy.................. 7
                                                                         Setting a Clear Direction . ........................................................................ 7
Table of Contents




                                                                         Defining a Compelling Value Proposition ................................................ 8
                                                                         Understanding Government’s Needs........................................................ 8
                                                                         Developing Strong Business Plans.......................................................... 9
                                                                         Government Services Is Business as Usual . .......................................... 9
                                                                     An Overlooked Competitive Advantage: Cultural Affinities............................. 9
                                                                     Conclusion.................................................................................................... 10
                                                                   Appendix: Moderators and Speakers................................................................ 11
Observations
Appendix




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                          Print                         3
Executive Summary
                    Observations                                   Introduction
                                                                   On April 9, 2014, the U.S. Postal Service Office of Inspector General (OIG) and the Postal Innovation Platform (PIP) co-organized a
                                                                   round table on “Government as a Postal Customer and Partner,” hosted by IBM in Washington, D.C. During the half-day meeting, postal
                                                                   organizations and representatives from government agencies, academia, and various industry organizations discussed what strategic
                                                                   approaches, value propositions, and business models can help postal operators succeed in doing business with government.

                                                                   The round table was divided into two parts. During the first session, speakers presented their views on how to successfully engage with
                                                                   government. During the second session, the discussion focused on the building blocks of a business strategy that would ensure the financial
                                                                   viability of government services and leverage cultural affinities between posts and governments.

                                                                   The following sections summarize the highlights and main points of both sessions.
Table of Contents




                                                                   Posts and Government: A Long-Standing Relationship That Needs to Be Rekindled
                                                                   For decades, postal operators around the world have played a vital role in ensuring the secure, affordable, and universal delivery of
                               “If posts move into                 communications and transactions between governments, citizens, and businesses. They have, at different levels, been traditionally part of
                                                                   their government’s agenda for social, financial, or digital inclusion and actively involved in the provision of many essential public services.
                        e‑government and build on
                       their traditional relationships             Nevertheless, according to Matthias Finger, professor at the Swiss Federal Institute of Technology (EPFL), the relationship between
                                                                   governments and posts has been weakening. This is due to several reasons. In the digital age, the availability of new online tools and
                      with government to trigger its               channels for engaging with citizens has made the role of posts as suppliers of government services less relevant. In addition, postal operators
                                                                   are progressively transforming into profit-oriented entities for which dealing with a complex customer like the government often presents more
                      interest, they will create great             challenges than opportunities.
                       opportunities for the future.”                                                                      Figure 1: Main Strategic Approaches Adopted by Postal Operators
                                                                   In Professor Finger’s view, the historical
                        Prof. Matthias Finger, EPFL                relationship with government can still represent
Observations




                                                                   a tremendous opportunity for posts if they can                     Post As Facilitator                       Post As Problem Solver
                                                                   engage with government on a new basis. This will
                                                                   require postal operators to redefine and adapt their
                                                                   offering to the evolving needs of governments and        •	Leverage physical network to                  •	Insource and reengineer
                                                                   citizens in the digital age.                               expend access to government                     government service processes
                                                                                                                              services
                                                                   Successfully Engaging with
                                                                   Government: Strategies and                               •	Provide front office services                 •	Provide customized back
                                                                                                                              (payments, ID verification, licenses)           end solutions
                                                                   Best Practices from Around
                                                                   the World
                                                                                                                            •	Focus on underserved citizens                 •	Focus on specific segments
                                                                   In terms of strategy, two main approaches seemed                                                           (e.g. health care services) or
                                                                                                                                                                              processes (e.g. e-voting)
Appendix




                                                                   to emerge from the discussion (Figure 1). Some
                                                                   postal operators have positioned themselves
                                                                   mostly as facilitators by leveraging their network       •	Priority on customer convenience              •	Priority to cost savings and
                                                                                                                                                                              efficiencies for both government
                                                                   (physical and digital) “as is” to provide broader and
                                                                                                                                                                              and users
                                                                   more convenient access to government services.
                                                                                                                           Source: OIG Analysis.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                     Print                                        4
Executive Summary                                                  Alternatively, other postal operators have positioned themselves mainly as problem-solvers by proposing new solutions capable of making
                                                                   government processes more modern, efficient, and user-friendly.

                                                                   These approaches are not mutually exclusive. On the contrary, postal operators, based on their resources and capabilities constantly mix
                                                                   these approaches to make sure they develop a government service offering as complete as possible. The section below provides some
                                                                   concrete examples of how the approaches have been implemented. In addition, it describes the suggested best practices for funding and
                                                                   innovating the postal offering of government services and for raising government awareness on the valuable role that postal operators
                                                                   can play.

                                                                   The “facilitator” approach: Complementing government networks — Postal operators around the world can rely on unparalleled retail and
                                                                   delivery networks that can help government expand access to its services, in particular for transactions that require a face-to-face interaction
                                                                   or in-person identity verification. By acting as a shared front office for multiple agencies, postal operators could help government cut costs
Table of Contents




                                                                   by reducing duplicative physical presence and activities across various agencies.2 An example of a seamless government service combining
                                                                   physical transactions and identity verification is the Postal Service’s passport service available at 8,700 post office locations across the
                                                                   United States. The Postal Service has been a “wonderful partner” to the U.S. State Department, said Nancy Pace, Chief of Customer Service
                      “If the Postal Service did not               of the Passport Division at State. In fiscal year (FY) 2013, 7.1 million passport applications generated $170 million in revenue for the Postal
                                                                   Service in associated fees. The next step is to further improve customer convenience, for instance by creating dedicated passport agents and
                        already exist we’d have to
                                                                   areas in selected postal facilities. A 6-month pilot will be starting soon.
                       invent it. They have been a
                                                                   According to David Williams, the U.S. Postal Service Inspector General, the Postal Service could help all levels of government process
                            great partner for us.”                 requests and applications for many different permits and licenses as well as deliver payment of benefits or provide identity validation and
                                                                   notarization services. In addition, as governments continue to digitize government services, the Postal Service network could provide a point
                                    Nancy Pace,                    of access to e-government services for digital “refugees” — the millions of U.S. citizens who have limited access to the Internet or lack the
                                                                   technological resources or capabilities to participate in e-government and the digital economy. Many of the people who are least likely to use
                           U.S. State Department
                                                                   the Internet are often physically or socially vulnerable and may be more likely to need government services. In so doing, the Postal Service
                                                                   would help government bridge the digital divide while fulfilling its mission of “binding the nation together.”3
Observations




                                                                   The “problem solver” approach: Redesigning government processes — The fragmentation of service processes among multiple agencies
                                                                   and offices is often a major source of waste and delays for government. Some postal operators have helped state and local governments
                                                                   solve this problem by providing one-stop-shop solutions able to simplify, streamline, and redesign government processes in a cost-effective
                                                                   and consumer-centric way. Poste Italiane, for instance, allows government agencies to outsource the end-to-end management of service
                                                                   processes that would be otherwise fragmented among multiple agencies.

                                                                   As an example, Ulisse Del Gallo from the Italian Post presented Poste Italiane’s traffic violation notification system. This solution integrates
                                                                   into one platform the printing and mailing (or e-mailing) of the fine notification, the collection of the payment (that the citizen can make
                                                                   electronically or through a post office), and the transmission of transaction data to the government office that issued the violation (Figure 2).
                                                                   Poste Italiane also provides residence permits to immigrants on behalf of the Ministry of Interior. The post manages the various phases of the
                                                                   process from the submission of the request through a post office to data management and permit issuance.
Appendix




                                                                   2
                                                                       	“e-Government and the Postal Service — A Conduit to Help Government Meet Citizens’ Needs,” Report Number RARC-WP-13-003, January 7, 2013,
                                                                        https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-13-003.pdf.
                                                                   3
                                                                       	 Ibid.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                                              Print                 5
Executive Summary                                                  Figure 2: Poste Italiane’s Integrated Notification Service




                               “The Postal Service
Table of Contents




                           network could provide a
                        physical point of access to
                         e-government services for
                           digital “refugees” — the
                           millions of U.S. citizens
                         who lack the technological
                                                                   Source: Ulisse Del Gallo, Poste Italiane.
                        resources or capabilities to
                        participate in e-government                In other words, the post has integrated both back-end and front-end government processes. Ulisse Del Gallo emphasized that building a
                                                                   successful partnership with government requires a dedicated sales force tasked with gaining insights into government’s needs and processes.
Observations




                         and the digital economy.”                 In addition, a technical team composed of representatives from the various company business units takes care of designing solutions
                                                                   integrating the capabilities of Poste Italiane’s various service platforms.
                         David Williams, USPS OIG
                                                                   Using trust as a strategy lever — In addition to their networks, what gives posts a competitive edge is their trusted image, according to
                                                                   Denis Morel from Swiss Post. Trust played a key role in the selection of Swiss Post as the provider of an electronic patient records
                                                                   management systems in the Geneva region. The platform allows healthcare specialists, including physicians, hospitals, pharmacies,
                                                                   laboratories and other players in the medical sector to share data about patients in real time.

                                                                   According to David Williams, as highly trusted intermediaries, posts can facilitate the online and offline provision of services that can require
                                                                   high standards of privacy, confidentiality, and security. These services include identification, payments, document certification and notarization,
                                                                   management of electronic health records, voting by mail, and e-voting.

                                                                   For example, Swiss Post has enabled all Swiss citizens to vote by mail since the 1990s, and voting by mail is common in several U.S. states
Appendix




                                                                   such as Oregon.4



                                                                   4
                                                                       	 Swiss citizens vote up to four times a year. About 90 percent of voters cast their ballot by mail. Elections et votations, La Poste,
                                                                         http://www.poste.ch/post-wahlen-und-abstimmungen.htm?DCSext.wt_shortcut=elections-et-votations.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                                                             Print   6
Executive Summary                                                  Considering new ways to fund government services — In times of shrinking government budgets, determining the appropriate pricing and
                                                                   revenue model for government services can be a challenge. Elizabeth Pemmerl from U.S.-based NIC Technologies explained how her
                                                                   company provides e-government services to federal, state, and local governments at no cost. NIC developed a transaction-based, self-funded
                                                                   model where government agencies share with NIC part of the service fees charged to high-volume business users for select value-added
                                                                   e-services. These fees help agencies cover both the initial investment and the ongoing maintenance of their e-government platform. For
                                                                   example, insurance companies pay state Departments of Motor Vehicles (DMVs) for online, on-demand access to bulk data from driver motor
                                                                   vehicle records.5 This helps DMVs compensate NIC for the cost of developing and hosting their service platform. Several alternative cost and
                                                                   revenue sharing systems could be conceived by postal operators when developing public-private partnerships with government.

                                                                   Innovating the government service portfolio — Dion Rudnicki from IBM pointed out the importance of posts becoming “smarter” by developing
                                                                   new technological, operational, and organizational capabilities. For example, postal operators could become an enabler of economic
                                                                   development in local communities. Postal operators collect large amounts of aggregated data, from change of address information to
Table of Contents




                                                                   transaction data. The application of data analysis to postal data such as mail volumes data or address databases could provide governments
                                                                   with new insights on national and local economic trends that would help them set better public policies.6

                                                                   Raising governments’ awareness — Fernanda Perez, from the Postal Union of the Americas, Spain and Portugal (PUASP), mentioned
                                                                   the importance of posts promoting their image with the government and making the government aware of the postal operator’s assets and
                                                                   capabilities.7 PUASP members are in the process of redefining their strategies to meet government needs in the digital age, and to position
                                                                   themselves as reliable partners in the implementation of public policies. Perez’s organization is actively supporting its members’ efforts by
                                                                   meeting with governments in the Latin American region to create awareness on the benefits of including postal operators in national social,
                                                                   financial, and economic development plans.


                                                                   The Building Blocks of an Effective Postal Government Strategy
                                                                   According to Elmar Toime, former CEO of New Zealand Post and longtime postal expert, to succeed in the government service market, postal
                                                                   operators need to have a clear and comprehensive strategy. The concept is deceptively simple, as posts too often underestimate the time and
Observations




                                                                   effort required to deal with a complex customer like government. Managing this complexity can generate hidden costs that can affect viability
                                                                   of government services. Putting in place careful strategic planning and business evaluation processes can widely mitigate these risks. After
                                                                   the round table, we asked Elmar Toime to elaborate on what in his opinion are the building blocks of a viable government strategy and how to
                                                                   implement it effectively.

                                                                   Setting a Clear Direction
                                                                   The first step is for the post’s management to make the strategic decision to include government services as an integral part of the company’s
                                                                   portfolio. As proactively engaging with government requires the involvement of multiple company departments, cross-unit collaboration can
                                                                   succeed only if there is a strong endorsement from the top. Once the decision is made, the next step is putting in place a dedicated team,
                                                                   composed of representatives from the key business units, to lead this effort and define a clear strategy plan. The team should also include
                                                                   managers who know how to “navigate” the government system, identify viable opportunities within the different government agencies, and
                                                                   foster business relationships.
Appendix




                                                                   5
                                                                       	 In the United States, Departments of Motor Vehicles (DMVs) are the state agencies that register motor vehicles and boats and issue driver’s licenses.
                                                                   6
                                                                       	 For instance, the U.S. Postal Service has entered into an agreement with the U.S. Department of Housing and Urban Development (HUD). HUD receives from the Postal Service quarterly
                                                                         aggregate data on addresses identified as having been vacant. HUD is making these data available for researchers working on tracking neighborhood change, see
                                                                         http://www.huduser.org/portal/datasets/usps.html.
                                                                   7
                                                                       	 The Postal Union of the Americas, Spain and Portugal is a Universal Postal Union affiliated organization composed of postal operators from Latin America or with strong historical and economic
                                                                         ties to the region. For more information, see http://www.upaepweb.com.uy/.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                                                         Print                                                     7
Executive Summary                                                  Defining a Compelling Value Proposition
                                                                   In setting up its strategic plan, the postal operator should define the assets that it wants to leverage to create a value proposition for
                                                                   government and the level of financial and operational effort that it is willing to invest. In terms of operational effort, a postal operator may
                                                                   decide to undertake initiatives that leverage existing assets and require minimum implementation effort or to develop a possible new set
                                                                   of assets and capabilities in support of a dedicated portfolio of government services. In terms of value proposition, posts with strong retail
                                                                   footprints and long-standing competence in managing face-to-face postal transactions and payments could position themselves as providers
                                                                   of front-office government services, such as identity verification and authentication services. Operators with strong IT development skills could
                                                                   consider insourcing the end‑to-end management of government service processes, including the provision of back‑end operations.

                                                                   Understanding Government’s Needs
                                                                   Countries’ institutional fabrics widely differ — governments can be highly centralized or decentralized, and more or less efficient at providing
                                                                   services to citizens. Governments’ structure and policy objectives are what define the scope of government service needs. For example, an
Table of Contents




                                                                   agency willing to transition to e-government may need support either in continuing to provide a “physical” alternative to digital refugees or in
                                                                   digitizing its processes more quickly and effectively. Before developing a strategic plan, the role of the postal operator’s business development
                                                                   team is to be able to get insights on government activities and initiatives, identify related challenges and opportunities, and determine how
                                                                   the post can help government address them. For example, the postal operator could map out “government deserts,” areas where there are
                                                                   no physical points of access to government services, to demonstrate that the postal network is ideally positioned to act as the interface for
                                                                   government services in underserved local communities. “Showing government how much you can save them is a very compelling argument to
                                                                   win the business,” Elmar Toime said.

                                                                   Figure 3: Building Blocks of an Effective Postal Government Strategy

                                                                                                          Define a                    Understand
                                                                                                                                                                     Develop a
                                                                      Set a Clear Direction            Compelling Value               Government
                                                                                                                                                                   Business Plan
                                                                                                         Proposition                    Needs
Observations




                                                                      • Strong                    • Define level of             • Business                   • Identify services
                                                                         endorsement                 financial and                development team
                                                                         from top                    operational                  to map                     • Develop a gap
                                                                         management                  investment                   government needs             analysis to
                                                                                                                                  and challenges               determine the
                                                                      • Create dedicated          • Create a                                                   level of
                                                                         team                        government                 • Assess capabilities          preparedness
                                                                                                     service portfolio            to address needs
                                                                      • Assess internal              by identifying               and challenges             • Assess
                                                                         skills and                  existing assets                                           costs/benefits,
                                                                         capabilities                to leverage                • Prioritize                   return on
                                                                                                                                  opportunities                investment, and
                                                                                                                                                               potential risks
Appendix




                                                                                                                                                             • Create
                                                                                                                                                               implementation
                                                                                                                                                               road-map (short
                                                                                                                                                               term/long term)

                                                                   Source: OIG Analysis.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                     Print                                      8
Executive Summary                                                  Developing Strong Business Plans
                                                                   After a preliminary screening of possible business opportunities, the next step is to develop a comprehensive business plan. The postal
                                                                   operator will have to answer several critical strategic questions to assess the viability of the opportunities identified: What would it take to win
                                                                   this business and what would be the impact on the post? What are the potential costs and benefits? How would the service be provided?
                                                                   What are the risks? For instance, complex and time-consuming government transactions would likely require the post to create dedicated
                                                                   counters. These changes may affect the provision of postal services at post offices — the post office layout will have to be redesigned to
                                                                   accommodate additional foot traffic. Implications in terms of capital investment or human resources should also be considered.

                                                                   Postal operators too often underestimate the time and effort it takes to launch new services. A detailed gap analysis aimed at determining their
                                                                   level of preparedness is critical: Are processes and internal competencies robust enough to allow for a quick launch? If not, is there enough
                                                                   time to start from scratch or would partnering with a private sector provider be a better solution? Answering this type of question can help
                                                                   posts determine a realistic timetable for deploying and scaling up new government services. Postal operators should start with the provision
Table of Contents




                                                                   of government services that are feasible in the short term and do not require major investments or reorganizations, before moving on to more
                                                                   complex services. For instance, a post already providing passport services may expand its offering “horizontally” by providing services with
                                                                   similar processes, such as car registrations or issuance of permits.
                    “Where do government services
                     actually work? We need to look                Making Business Development an Ongoing Process
                                                                   Business development is an iterative process. New insights on government’s planned initiatives, available funds, and timing of expected
                        more closely at how postal
                                                                   decisions will feed into the preparation of the business plans. For example, in the UK, the Department of Works and Pensions wants to end the
                        operators have managed to                  delivery of pensions and benefits through the post office network for 3 million users by 2015. Monitoring and mitigating the so-called political
                                                                   risks of government services should be a key priority of a business development team. At the same time, each time the postal operator
                     establish successful business                 develops new capabilities or innovative ideas, the information should be proactively shared with government to stimulate new possible
                                                                   business opportunities.
                         ventures and created new
                                                                   Government Services Is Business as Usual
                     opportunities with both strong
Observations




                                                                   Postal operators’ decision to provide government services is often driven by social considerations. Given the traditionally public nature of
                          and weak governments.”                   the postal infrastructure, government services are often seen as an adjacent market to expand into and a natural extension of the postal
                                                                   operator’s public mission. Sometimes it is the government itself that mandates the post to provide government services. Nevertheless, despite
                    Professor Matthias Finger, EPFL
                                                                   the social dimension of government services, the dynamic between governments and postal operators is mainly a business relationship.
                                                                   Government services should be approached like any other service and implemented only if they assure a sound return on investment. The
                                                                   fact that government services are able to “generate revenue” does not always mean that they are able to cover all the hidden costs generated
                                                                   by the complexity of dealing with government as a customer. Finding the business model able to balance the public service mission with
                                                                   profitability will be key for postal operators to succeed in the government service market.


                                                                   An Overlooked Competitive Advantage: Cultural Affinities
                                                                   According to Jocelyn Johnston, professor at American University, postal operators can rely on a number of competitive advantages that can
                                                                   position them as preferred government providers. A major, though often overlooked, competitive advantage is the cultural affinity between
Appendix




                                                                   governments and posts. They still speak a common “language:” they share similar work cultures and models and have pre-existing business
                                                                   and professional connections. In most countries, government is still a major (if not the only) postal shareholder and seats on the postal
                                                                   operator’s board. These factors contribute to lower what economists call the hidden “transaction costs,” which is the risk and time involved in
                                                                   creating and nurturing a partnership.


                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                       Print                                           9
Executive Summary                                                  These were only some of the findings that emerged from Professor Johnston’s broader research on state and local governments. Talking
                                                                   about her research, she said:

                                                                         We have looked at state and local governments that contract out for particular goods and services and found out they like to work with
                                                                         other government entities, and they often tend to prefer them when they have the choice. The U.S. Postal Service can be seen as a
                                                                         hybrid between a traditional government agency and a commercial organization. For other agencies, its “government side” makes it a
                                                                         relatively easy partner to work with.

                                                                         The main reason is that the transaction costs of interacting and doing business with another government entity tend to be lower
                                                                         than they would be compared to a purely private sector organization. When governmental organizations work together, a common
                                                                         perspective, culture, and language contribute to drive down transaction costs. These costs are important but overlooked. . .They are
                                                                         usually hidden, and are almost never considered in the contract award process.
Table of Contents




                                                                         As anybody engaged in business partnerships will know, when conflict arises and clarity begins to break apart, problem resolution can
                                                                         take a lot of time. This is where working with another government agency becomes a major advantage. The two organizations will be
                                                                         imbued with the same shared values, the same respect for the tax payers and citizens to whom they are ultimately accountable.
                                                                         They will also be subject to the same political forces or budget caps.


                                                                   Conclusion
                                                                   While the half-day round table could only briefly touch upon the different aspects of postal government strategies, what clearly emerged from
                                                                   the discussion is that government services represent a significant business opportunity for posts.

                                                                   Almost everywhere, postal operators have features, resources, and a cultural affinity with government that provide them with competitive
                                                                   advantages over other players in the government service market.
Observations




                                                                   By leveraging their digital infrastructure, address databases, retail and delivery networks, and trusted intermediary role, posts can create a
                                                                   large portfolio of physical and digital government solutions to assist agencies in reducing costs, streamlining processes, improving
                                                                   inter-agency coordination, and better serving citizens. To succeed in the government services market, though, posts need to invest in
                                                                   developing the appropriate set of skills and capabilities required to deal with a complex customer like the government. In particular, the ability
                                                                   to define clear and comprehensive strategies and set up evaluation processes to rigorously assess the cost-efficiency of new opportunities
                                                                   with government is critical.

                                                                   Participants also agreed that additional research on best practices should be conducted as it could provide valuable insights on the factors
                                                                   that lead many postal operators to a successful postal government strategy.
Appendix




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                     Print                                       10
Executive Summary
                    Appendix:                                      Bernhard Bukovc, Postal Innovation Platform
                                                                   bernhard.bukovc@epfl.ch

                    Moderators and                                 Mr. Bukovc is the Managing Director of the Postal Innovation Platform (PIP), an initiative focusing on studying the future
                    Speakers                                       for the postal industry with a solution-oriented approach. PIP operates under the umbrella of an academic research
                                                                   center (EPFL-MIR based in Lausanne, Switzerland), the Universal Postal Union, and Swiss Post. Mr. Bukovc is also
                                                                   an entrepreneur, who founded and manages Vinaficio, an e-marketplace that supports European wine growers. He
                                                                   previously worked for the Austrian Post as the Head of Regulatory Affairs, and served as the Director of Intercompany
                                                                   Pricing and Regulation at the International Post Corporation. Mr. Bukovc holds a LL.M from George Washington
                                                                   University and a J.D. from the University of Graz, Austria.
Table of Contents




                                                                   Professor Matthias Finger, EPFL
                                                                   matthias.finger@epfl.ch

                                                                   Matthias Finger serves as a Professor and Chair of Management of Networked Industries at École Polytechnique
                                                                   Fédérale de Lausanne (EPFL) in Switzerland.

                                                                   After having been Assistant Professor at Syracuse University and Associate Professor at Columbia University,
                                                                   Matthias Finger was appointed Full Professor at the Swiss Graduate School of Public Administration in Lausanne in
                                                                   1995. He was appointed Full Professor at the Swiss Federal Institute of Technology in October 2002. Between 2003 and
                                                                   2009 he was the Dean of EPFL’s School of Continuing Education. Since 2008, he has been the co-editor in-chief of the
                                                                   Journal on Competition and Regulation in Network Industries. He was also appointed Area Director for Transport at the
                                                                   Florence School of Regulation in 2010. Beginning in 2007, Matthias Finger has served as a member of the
                                                                   Swiss Federal Electricity Regulatory Commission (ELCOM). Professor Finger received both his Ph.D. in Education
                                                                   (1986) and his Ph.D. in Political Science (1988) from the University of Geneva, Switzerland.
Observations




                                                                   Ulisse Del Gallo, Poste Italiane
                                                                   u.delgallo@posteitaliane.it

                                                                   Ulisse del Gallo is the Head of IT Demand Management and Business Development for the International and
                                                                   Government Markets at Poste Italiane. In this role he is involved in developing solutions with Poste Italiane’s
                                                                   international partners and in developing new business initiatives. He has worked as CIO in Postel (a Poste Italiane
                                                                   subsidiary focused on document management solutions and business services) managing the Italian National Census of
                                                                   2011 and the Post Office Digitalization project, among others. He also previously worked with the Postal Industry division
                                                                   of Accenture to develop the implementation of several integrated services focused on postal business transformation for
                                                                   Poste Italiane and other postal operators. Mr. Del Gallo holds a Master’s degree in Economics from the LUISS University
Appendix




                                                                   in Roma, Italy.




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                    Print                    11
Executive Summary                                                  Jocelyn Johnston, American University
                                                                   johnston@american.edu

                                                                   Professor Jocelyn Johnston is an Associate Professor in the Department of Public Administration and Policy at
                                                                   American University. Her current research focuses on government contracting, public management, and
                                                                   intergovernmental programs and policy. Her funded research includes several studies of social welfare reform in the
                                                                   states. She has served on executive committees and editorial boards for several leading professional organizations and
                                                                   journals. Professor Johnston served 10 years in local government administering federally and state funded social welfare
                                                                   programs. She also was the Chair of the National Association for Budgeting and Financial Management.
                                                                   Professor Johnston holds a M.P.A. and Ph.D. from Syracuse University, Maxwell School of Citizenship and Public Affairs.

                                                                   Denis Morel, Swiss Post
Table of Contents




                                                                   denis.morel@post.ch

                                                                   Since January 2014, Denis Morel has been the Head of eHealth Products and Projects at Swiss Post. He is responsible
                                                                   for the development of all eHealth products and the management of customers’ project portfolios. He was previously the
                                                                   Head of Business Unit eGovernment at Swiss Post Solutions. From 2008 to 2012, Mr. Morel held managerial positions
                                                                   with Swiss IT firms Trivadis AG and Informatique-MTF S.A. He started his career as a teaching assistant of mathematics
                                                                   at the University of Fribourg, Switzerland. Mr Morel holds a Master’s degree and a Ph.D. in Mathematics from the
                                                                   University of Fribourg, and an Executive M.B.A. from the Fribourg Business School.




                                                                   Nancy Pace, U.S. Department of State
                                                                   PaceNL@state.gov
Observations




                                                                   Ms. Pace joined the U.S. Department of State in October 2004.  She serves as the Chief for Customer Service in
                                                                   Passport Services, a directorate within the Bureau of Consular Affairs.  Ms. Pace’s office is responsible for developing
                                                                   and implementing policies and procedures for a national customer service program.  Ms. Pace holds a MBA degree from
                                                                   American University with areas of concentration in finance and marketing. Prior to working in the public sector, she held
                                                                   management positions in the travel industry, online financial services, and government relations.




                                                                   Elizabeth Pemmerl, NIC Technologies
                                                                   epemmerl@egov.com

                                                                   Elizabeth Pemmerl is the President of NIC Technologies, the federal government services division of NIC Inc. NIC
                                                                   is a leading provider in the United States of official government web sites, online services, mobile applications, and
Appendix




                                                                   secure payment processing. The company provides the official state websites for 29 states. Ms. Pemmerl joined NIC
                                                                   Technologies in 2009 as the Director of Marketing. Ms. Pemmerl previously was the Director of Marketing at NIC’s
                                                                   RI.gov subsidiary, a Marketing Manager at Bank Rhode Island, and a Project Manager for the State of Rhode Island.
                                                                   She holds a BA in Rhetoric from Bates College and also received executive education from Harvard University, Kennedy
                                                                   School of Government.
                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                  Print                     12
Executive Summary                                                  Fernanda Perez, Postal Union of Americas, Portugal and Spain (PUASP)
                                                                   fernanda.perez@upaep.com.uy

                                                                   Fernanda Perez has 18 years of experience in the postal sector, with a focus on postal policies, development plans, and
                                                                   universal service. Since 2011, she has been a Project Manager at PUASP, the Montevideo-based regional association
                                                                   gathering 28 posts from the Americas, Spain, and Portugal. Prior to that, she worked for 15 years at the Uruguayan Post
                                                                   (Correo Uruguayo) in the international affairs division — first in the commercial and operations units, then from 2003 to
                                                                   2010 as the division manager. While with Correo, she chaired a number of international working groups at both regional
                                                                   and global levels (PUASP, UPU). Ms. Perez holds degrees in International Relations from the Facultad de Derecho of
                                                                   Uruguay and the Universidad Politécnica of Madrid, Spain. She also received executive education from Universidad de
                                                                   Montevideo, Uruguay.
Table of Contents




                                                                   Dion Rudnicki, IBM
                                                                   rudnicki@us.ibm.com

                                                                   Dion Rudnicki is the Vice President of Business Development and Global Government Industry at IBM. He has over 20
                                                                   years of sales and business management experience in working with various client organizations on how information
                                                                   technology solutions can satisfy their challenging operational and strategic needs. Mr. Rudnicki is responsible for leading
                                                                   IBM’s global efforts focused on growing our business portfolio across the global Postal marketplace and in driving new
                                                                   business opportunities in countries supported by emerging markets funding. The goal of both of these efforts is to help
                                                                   IBM clients across the globe innovate, leverage, and optimize their own capabilities and performance. Mr. Rudnicki
                                                                   earned a Bachelor of Science degree in Mechanical Engineering from the University of Notre Dame in 1983.
Observations




                                                                   Elmar Toime, Elmar Toime Consulting Ltd
                                                                   etoime@btinternet.com

                                                                   Elmar Toime is an independent advisor to the postal sector based in London. He is chairman of the Postea Group, a
                                                                   postal technology group incorporated in 2006, and a member of the Supervisory Board of Deutsche Post DHL, the
                                                                   world’s leading logistics company. Mr. Toime was the chief executive of New Zealand Post Limited from 1993 to 2003
                                                                   and Executive Deputy Chairman of the Royal Mail Group from 2003 to 2004, a position that included roles as chairman
                                                                   of the management board and chairman of GLS, a European parcels group. Mr. Toime has been recognized in a life-time
                                                                   achievement award for leadership in the postal industry. Born in Italy, Elmar grew up and was educated in Melbourne,
                                                                   Australia and has qualifications in Science and in Economics from the University of Melbourne.
Appendix




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                    Print                     13
Executive Summary                                                  David Williams, U.S. Postal Service Office of Inspector General
                                                                   davewilliams@uspsoig.gov

                                                                   David C. Williams was sworn in as the second independent Inspector General for the U.S. Postal Service in
                                                                   August 2003. In his last position, Williams served as the Deputy Assistant Administrator for Aviation Operations at the
                                                                   Transportation Security Administration (TSA) from 2002 to 2003. Williams has served as Inspector General for five
                                                                   U.S. federal agencies, including the Social Security Administration from 1996 to 1998, the Department of the Treasury
                                                                   in 1998, and the Tax Administration of the Department of Treasury from 1999 to 2003. Mr. Williams graduated from
                                                                   Southern Illinois University and received his Advanced Degree in Education and a Master’s in Education from the
                                                                   University of Illinois.
Table of Contents




                                                                   Eric Woods, U.S. Postal Service
                                                                   eric.l.woods@usps.gov

                                                                   A Strategic Planning Specialist in the U.S. Postal Service Office of Strategic Planning, Eric Woods has a diverse
                                                                   background in business analysis and program management from both the private and public sectors. With the
                                                                   U.S. Postal Service since 2006, he has worked in a post office and at headquarters. In particular, he has produced the
                                                                   annual Comprehensive Statement of Postal Operations corporate report, as well as the quarterly Business Insights
                                                                   Report that reports on industry trends, threats, and opportunities to postal management. He previously worked for
                                                                   12 years with Fannie Mae, where he established and grew five housing industry partnerships focused on growing
                                                                   minority homeownership — including the first ever — and won awards for driving innovation. Mr. Woods earned an A.B.
                                                                   in Government from Dartmouth College, and an MBA in Finance from the University of Maryland. He is also LSS
                                                                   (Lean Six Sigma) Green Belt trained.
Observations
Appendix




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                                                                   Print                  14
Executive Summary
Table of Contents




                                                                   U.S. Postal Service Office of Inspector General
                                                                                1735 N. Lynn Street
                                                                                Arlington, VA 22209
Observations




                                                                             Telephone: 703-248-2100
                                                                                 www.uspsoig.gov

                                                                   For media inquiries, contact Agapi Doulaveris
                                                                            Telephone: 703-248-2286
                                                                            adoulaveris@uspsoig.gov
Appendix




                    Government as a Postal Customer and Partner:
                    International Round Table Recap
                    Report Number RARC-IB-14-003-DR                                                                  Print   15
